                                                                             Page 1 of2
                                NATIONAL SCIENCE FOUNDATION
                                    4201 WILSON BOULEVARD
                                  ARLINGTON, VIRGINIA 22230




       OFFICE OF
, INSPECTOR GENERAL




 MEMORANDUM
 Date: 24-Marchl000'

 To:     File 199100041

 From:

 RE:

 Background

         On 27 October 1999 OIG received
 purchased on award number                at
 been stolen. The amotu'lt of the missing   ~',MO'''~ LU'Lan,u al)prOXllmlltel
 inclusive of equIpment purchased with NSF funds and related equipment purchased with
 university funds.
                          -~.



          The~epartment filed a stolen             '1'\'   rnrIPrf''' ....

 police department. On 28 October 1999
 requested OIG assistance in the·
 the Principal                the
 the State Uni

  Investigation

     . The j~int investigation ~ith t h l l iol,ic;e
                                                 " De~~ment revealed that the stolen
 eqUipment dIsappeared on the mght 0                                          II1II'
                                                    unaruiounced departure from
 Mul.            .             during             01 November 1999 with faculty and
 students of the                          confirmed that the missing equipment was
  sed b ,and                           On 03 and 04 November 1999 ~d SA
_       _nterviewed                           denied removing an~~chased
 un er the NSF      ,                       materials belonging t~ln addition, on
 03 and 04 November 1999               and SA"'conducted a consen~,,~~arch~f
~aboratory area                          matching·                  the missing'" •'.'
~nt were                          8 November 1999 a                           ' whose
 serial number was recorded during the consent search                       on 04
                                       Closeo                                                          2


N~v~mber ~ 999, was identified as missing f r o m . t was not listed as stolen on the
ongmal pohce report.                                                                               .

        On 19 November 1999 the U.S. Attorney's Office i~Y was
contacted regarding the case and information was forwarde~ duty AUSA
stated that the i n f o.l W l aale for a search w.a.IT.ant. On 21 November 1999 A~ting
Inspector General                 dvise~e wanted to involve the counsels ~
universities in an a tempt to persuade_ return the missing equipment t~
even though she denied being in po~se   . n of the missing equipment during the
interview with SA ~d SA                      e had previously been in contact with both
university Police Departmerits and t ey were aware ofthe situation.           .

       On 21 March 2000 Lt.. . . . .f thelllllllilll&iice Dep~rtI~e~t advis~d th~t.
Police Department is no longe~ purs~ case.... .
                                                              ~~"i.~r,.,..,   .
                                                                        ..
                                                              ,~·v,"ltllt F .

Conclusions

        Based on a lack of OIG resources and since th~o~ice Department closed
their case, this case is closed.



                                                                                         .~.   ,




                                                                                  .1,"



                  .".,   .
